Case: 20-20348

Document: 00515562652

Page: 1

Date Filed: 09/14/2020

States Court of Appeals
for tfje Jftftf) Circuit
No. 20-20348
A True Copy
Certified order issued Sep 14, 2020

W. Ctm u

Lawrence James Napper,

Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner—Appellant,
versus
Bobby Lumpkin, Director,
Texas Department of Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:20-CV-261

Before Higginbotham, Smith, and Engelhardt, Circuit Judges.
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City of Seven Points, 230 F.3d 167,169 (5th Cir.
2000). Under 28 U.S.C. § 2107(a) and Federal Rule of Appellate Procedure
4(a)(1)(A), the notice of appeal in a civil case must be filed within thirty days
of entry of judgment.
In this habeas corpus case filed by a state prisoner, the final judgment
was entered, and certificate of appealability was denied, on February 4, 2020.

Case: 20-20348

Document: 00515562652

Page: 2

Date Filed: 09/14/2020

No. 20-20348

On February 20, 2020, the petitioner filed a document titled “OBJECTION
TO FINAL JUDGMENT. ” The district court construed the document as a
motion for reconsideration under Federal Rule of Civil Procedure 59(e) and
denied relief on February 27,2020. Therefore, the final day for filing a timely
notice of appeal was Monday, March 30, 2020, because the thirtieth day was
a Saturday. See Fed. R. App. P. 26(a)(1)(C).
The petitioner’s prose notice of appeal and motion to proceed informa
pauperis are dated June 6, 2020 and stamped as filed on June 29, 2020.
Therefore, the notice of appeal could not have been deposited in the prison’s
mail system within the prescribed time. S^FED. R. APP. P. 4(c)(1) (stating
that a prisoner’s pro se notice of appeal is timely if deposited in the institu­
tion’s internal mail system on or before the last day for filing). When set by
statute, the time limitation for filing a notice of appeal in a civil case is juris­
dictional. Hamerv. NeighborhoodHous. Servs. ofChi.}\2% S. Ct. 13,17 (2017);
Bowles v. Russell, 551 U.S. 205, 214 (2007).
The lack of a timely notice mandates dismissal of the appeal. United
States v. Garcia-Machado, 845 F. 2d 492, 493 (5th Cir. 1988). Accordingly,
the appeal is DISMISSED for want of jurisdiction. All pending motions
are DENIED.

2

Additional material
from this filing is
available in the
Clerk's Office.

